1a
APPENDIX A
967 F.3d 57
United States Court of Appeals, First Circuit.
UNITED STATES of America, Appellee,
v.
Anthony SEWARD, Defendant, Appellant.
No. 18-1519
July 28, 2020
APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF MASSACHUSETTS, [Hon. Denise J. Casper, U.S. District
Judge]
Inga L. Parsons, with whom Law Offices of Inga
L. Parsons was on brief, for appellant.
Kelly Begg Lawrence, Assistant United States Attorney, with whom Andrew E. Lelling, United States
Attorney, was on brief, for appellee.
Before Barron, Stahl, and Lipez, Circuit Judges.
STAHL, Circuit Judge.
This appeal arises out of an order denying a motion to dismiss filed by Defendant-Appellant Anthony Seward, a state sex offender who moved from
Massachusetts to New York and failed to update his
registration as required by the Sex Offender Registration and Notification Act (“SORNA”), 18 U.S.C. §
2250(a). Seward was indicted in Massachusetts for
his failure to register. He moved to dismiss the indictment on the ground that venue in Massachusetts
was improper, relying principally on the Supreme
Court’s decision in Nichols v. United States, ––– U.S.
––––, 136 S. Ct. 1113, 194 L.Ed.2d 324 (2016). Sew-

2a
ard argued that under Nichols, he had committed no
crime in Massachusetts because his failure to register occurred entirely in New York.
The district court denied Seward’s motion to dismiss, concluding that Nichols did not address the
question of venue. The court further found interstate
travel to be a necessary element of a § 2250 offense
and, as such, determined that venue was proper in
Massachusetts, where Seward’s interstate travel began. After careful review, we affirm. We thus join
the all but one of our sister circuits who have
reached this issue to conclude that venue for a §
2250 prosecution is proper in the departure jurisdiction.
I. Facts and Procedural Background
A. SORNA
SORNA was enacted by Congress in part to “make
more uniform what had remained ‘a patchwork of
federal and ... state registration systems,’ with ‘loopholes and deficiencies’ that had resulted in ... sex offenders becoming ‘missing’ or ‘lost.’” Nichols, 136 S.
Ct. at 1119 (quoting United States v. Kebodeaux,
570 U.S. 387, 399, 133 S.Ct. 2496, 186 L.Ed.2d 540
(2013)). As such, SORNA requires that every “sex
offender shall register, and keep the registration
current, in each jurisdiction where the offender resides, where the offender is an employee, and where
the offender is a student.” 34 U.S.C. § 20913(a). It
further requires that an offender “shall, not later
than 3 business days after each change of name, residence, employment, or student status, appear in
person in at least 1 jurisdiction involved ... and inform that jurisdiction” of the change. Id. § 20913(c).

3a
Section 2250(a) of SORNA makes failing to register a crime punishable by a fine or a prison term of
up to 10 years, or both. 18 U.S.C. § 2250(a). Under
the statute, whoever “(1) is required to register under [SORNA]; (2)(A) is a sex offender as defined for
the purposes of [SORNA] by reason of a conviction
under Federal law ...; or (B) travels in interstate or
foreign commerce ...; and (3) knowingly fails to register or update a registration as required by [SORNA]”
is subject to penalties. Id.
B. Seward’s Failure to Register
The facts are not in dispute. Seward was convicted as a sex offender in 1996 under Massachusetts
state law and was therefore subject to the registration requirements set forth by SORNA. See 34
U.S.C. §§ 20911-20932. Seward initially registered
as a sex offender in Massachusetts. In 2016, Seward
moved from Massachusetts to New York, where he
established residence. He subsequently failed to update his registration as required by SORNA.
On January 19, 2017, a District of Massachusetts
magistrate judge issued an arrest warrant as to
Seward for failing to register as a sex offender in violation of § 2250(a). Seward was arrested several days
later. On March 9, 2017, a federal grand jury returned an indictment charging that Seward, “being
an individual required to register under [SORNA],
traveled in interstate commerce and knowingly
failed to register and update his registration as required by [§ 2250].”
On July 20, 2017, Seward moved to dismiss the
indictment on the ground that Massachusetts was

4a
an improper venue and the district court thus lacked
jurisdiction over his prosecution. Seward contended
that under Nichols, venue in Massachusetts was improper because no violation of SORNA had occurred
there. In doing so, he relied significantly on the Seventh Circuit’s 2-1 decision in United States v. Haslage, 853 F.3d 331 (7th Cir. 2017), which interpreted
Nichols to preclude prosecution for § 2250 violations
in an offender’s departure jurisdiction.
At an August 10, 2017 hearing, the district court
denied Seward’s motion. The district court determined that Nichols did not “answer[ ] the venue
question” and explicitly “disagree[d] with” the Haslage majority’s analysis, concurring instead with the
dissent’s conclusion there that under the “preexisting Supreme Court precedent,” specifically, Carr v.
United States, 560 U.S. 438, 130 S.Ct. 2229, 176
L.Ed.2d 1152 (2010), interstate travel is a “necessary
element” of a § 2250 charge. Accordingly, the district
court analyzed venue under 18 U.S.C. § 3237(a),
which states that for offenses begun in one district
and completed in another, venue is proper “in any
district in which such offense was begun, continued,
or completed.” As such, the court concluded venue
was proper in Massachusetts, where Seward’s travel
began.
On August 20, 2017, Seward unsuccessfully
moved for reconsideration of the district court’s ruling. On May 21, 2018, Seward entered a conditional
guilty plea as to the § 2250(a) charge, reserving his
right to appeal the denial of his motion to dismiss for
lack of venue. On May 31, 2018, Seward was sentenced to a term of time served, which had been approximately sixteen months, and five years of supervised release. This timely appeal as to the question

5a
of venue followed.
II. Analysis
A. Standard of Review
“When a defendant in a criminal case appeals
from a venue determination, we review the trial
court’s legal conclusions de novo and its factual findings for clear error.” United States v. Salinas, 373
F.3d 161, 164 (1st Cir. 2004). Since the sole question
before us is one of law -- whether venue in the departure jurisdiction is proper for a § 2250 prosecution -we review the district court’s denial de novo.
B. Venue
As this court has not yet opined on the question
before us, we proceed “[a]gainst an unpainted backdrop” with an analysis of foundational venue principles guiding our inquiry. Id.
A criminal defendant must be tried in the state or
district in which the offense “shall have been committed.” U.S. Const. art. III, § 2, cl. 3; see also id.
amend. VI (requiring trial “by an impartial jury of
the State and district wherein the crime shall have
been committed”). Congress “further entrenched”
this principle in the Federal Rules of Criminal Procedure, which include “an explicit directive that limits a criminal prosecution to ‘a district [where] the
offense was committed.’” Salinas, 373 F.3d at 164
(quoting Fed. R. Crim. P. 18).
Where a criminal statute “contains a specific venue provision, that provision must be honored” so long
as it comports with Constitutional requirements. Id.
(citing Travis v. United States, 364 U.S. 631, 635, 81
S.Ct. 358, 5 L.Ed.2d 340 (1961); Armour Packing Co.

6a
v. United States, 209 U.S. 56, 73-75, 28 S.Ct. 428, 52
L.Ed. 681 (1908)). Where, as here, the statute contains no such provision, the “locus delicti [of the offense] must be determined from the nature of the
crime alleged and the location of the act or acts constituting it.” United States v. Anderson, 328 U.S.
699, 703, 66 S.Ct. 1213, 90 L.Ed. 1529 (1946); see
United States v. Rodriguez-Moreno, 526 U.S. 275,
279, 119 S.Ct. 1239, 143 L.Ed.2d 388 (1999). In making such a determination, a court must “identify the
conduct constituting the offense (the nature of the
crime) and then discern the location of the commission of the criminal acts.” Rodriguez-Moreno, 526
U.S. at 279, 119 S.Ct. 1239. For offenses that span
multiple jurisdictions, or “where a crime consists of
distinct parts which have different localities[,] the
whole may be tried where any part can be proved to
have been done.” Id. at 281, 119 S.Ct. 1239 (quoting
United States v. Lombardo, 241 U.S. 73, 77, 36 S.Ct.
508, 60 L.Ed. 897 (1916)); see also Salinas, 373 F.3d
at 164. And under the federal statute governing
venue for “[o]ffenses begun in one district and completed in another,” such continuing offenses “may be
inquired of and prosecuted in any district in which
such offense was begun, continued, or completed.” 18
U.S.C. § 3237(a).
In determining the nature of the crime for purposes of venue, the “focus of this test is on the conduct comprising the offense.” Salinas, 373 F.3d at
164. The Supreme Court has rejected in such an
analysis dispositive reliance on “the so-called ‘verb
test’ -- the notion that action verbs reflected in the
text of the statute should be ‘the sole consideration
in identifying the conduct that constitutes an of-

7a
fense.’” 1 Id. (quoting Rodriguez-Moreno, 526 U.S. at
280, 119 S.Ct. 1239). In doing so, however, the Court
also explicitly recognized that “the ‘verb test’ certainly has value as an interpretative tool.” RodriguezMoreno, 526 U.S. at 280, 119 S.Ct. 1239. To this end,
it made clear that its concern with an overreliance
on action verbs was not that this would produce an
overinclusive result, but rather, that requiring the
presence of an action verb to define the nature of the
crime could sweep out conduct not enumerated by
such action language but nonetheless essential to
the offense. See id. (“[The verb test] cannot be applied rigidly, to the exclusion of other relevant statutory language. The test unduly limits the inquiry into the nature of the offense and thereby creates a
danger that certain conduct prohibited by statute
will be missed.”). Thus, while we may not focus exclusively on § 2250’s action verbs, we are permitted
to consider them as part of the “wider-angled lens”
through which we “should peer at the conduct elements comprising the crime.” Salinas, 373 F.3d at
164 (citing Rodriguez-Moreno, 526 U.S. at 280 & n.4,
119 S.Ct. 1239).
Grounded by these principles, we now apply them
to the case at hand.
C. Venue for Seward’s Section 2250 Prosecution
Using this framework, our task today is to determine the nature of a § 2250 crime -- or, put differentCourts deploying the “verb test” analyze “‘the key verbs in the
statute defining the criminal offense’ to find the scope of relevant conduct.” United States v. Georgacarakos, 988 F.2d 1289,
1293 (1st Cir. 1993) (quoting United States v. Tedesco, 635
F.2d 902, 905 (1st Cir. 1980)).
1

8a
ly, to conclude where Seward’s offense “began.” See
United States v. Holcombe, 883 F.3d 12, 16 (2d Cir.
2018). Though we have not yet reached this question, all but one of our sister circuits to have done so
have held that venue for a § 2250 prosecution of a
state sex offender is proper in the departure jurisdiction because the locus delicti of the offense encompasses where the offender’s travel begins. 2 See id. at
15-16; United States v. Kopp, 778 F.3d 986, 988
(11th Cir. 2015); United States v. Spivey, 956 F.3d
212, 216-17 (4th Cir. 2020); United States v. Howell,
552 F.3d 709, 717-18 (8th Cir. 2009); United States
v. Lewis, 768 F.3d 1086, 1092-94 (10th Cir. 2014); cf.
United States v. Lewallyn, 737 F. App’x 471, 474-75
(11th Cir. 2018) (per curiam) (holding Nichols does
not abrogate Kopp); but see Haslage, 853 F.3d at
335-36 (finding venue in the departure jurisdiction
improper in reliance on Nichols).
Like our sister circuits, we are guided in answering this question by the Supreme Court’s decision in
Carr, in which the Court considered whether a defendant could be convicted under § 2250 for interstate travel that predated the effective date of SORNA. 560 U.S. at 456-58, 130 S.Ct. 2229. In answering this question, the Court first determined that §
2250(a) contains three distinct elements, which must
be satisfied sequentially: for a state sex offender like
Seward, the government must prove (1) that he was
required to register under SORNA; (2) that he traveled in interstate or foreign commerce; and (3) that
We note that Kopp, Lewis, and Howell were decided prior to
the Supreme Court’s decision in Nichols. However, as analyzed
infra, because Nichols neither abrogates Carr nor is dispositive
as to the question of venue, we view these decisions as good
law.
2

9a
he knowingly failed to register or update a registration as required by SORNA. See id. at 445-46, 130
S.Ct. 2229. The Court then analyzed the “interstate
travel” element, characterizing it as “the very conduct at which Congress took aim” and “an aspect of
the harm Congress sought to punish” in enacting §
2250. Id. at 453-54, 130 S.Ct. 2229. As the Court
concluded, “[t]aking account of SORNA’s overall
structure, we have little reason to doubt that Congress intended § 2250 to do exactly what it says: to
subject to federal prosecution sex offenders who
elude SORNA’s registration requirements by traveling in interstate commerce.” Id. at 456, 130 S.Ct.
2229. Accordingly, pursuant to Carr, “[t]he majority
of our sister circuits that have addressed the issue
have held that a SORNA offense begins ... in the district that the defendant leaves, not in the district ...
in which the defendant ultimately fails to register.”
Holcombe, 883 F.3d at 15 (citing Kopp, 778 F.3d at
988-89; Lewis, 768 F.3d at 1092-94; Howell, 552 F.3d
at 717-18); see Spivey, 956 F.3d at 216-17; Lewallyn,
737 F. App’x at 474-75.
To circumvent the Court’s decision in Carr and
the weight of persuasive authority from other circuits, Seward contends that we should instead follow
the novel approach taken by the Seventh Circuit in
Haslage, a 2-1 decision that relied principally on the
Court’s decision in Nichols v. United States. See 853
F.3d at 335-36. In Nichols, the defendant, a federal
sex offender, 3 left his residence in Kansas and moved
For federal sex offenders, interstate travel is not an element
of a § 2250 offense. See 18 U.S.C. § 2250(a)(2)(A) (travel element does not apply to those convicted of a sex offense “under
Federal law (including the Uniform Code of Military Justice),
3

10a
to the Philippines, where he failed to register. See
136 S. Ct. at 1117. Nichols was prosecuted in Kansas
for the failure to register as required by § 2250. Id.
He moved to dismiss the indictment on the grounds
that he was not required under SORNA to update
his registration in Kansas, but did not contest venue.
Id. The Court held that SORNA did not require
Nichols to update his registration in Kansas once he
no longer resided in the country. Id.
In Haslage, a divided Seventh Circuit panel applied Nichols to hold that venue for a § 2250 prosecution is not proper in the departure jurisdiction. See
853 F.3d 331. As the court there determined, in light
of Nichols, interstate travel is “neither a distinct
crime nor an element of the crime,” and therefore is
not “conduct that is part of the offense.” 4 Id. at 333,
335. Seward asserts that the Seventh Circuit’s ruling in Haslage demonstrates that Nichols changes
the venue analysis for SORNA prosecutions, and
that it is no longer correct to find venue in the departure jurisdiction. Accordingly, he contends that
under Nichols, a § 2250 violation occurs only after a
sex offender reaches his new residence and fails to
timely register. Seward also argues that Carr does
not apply to his case because it did not address venue and further, that the Court’s discussion there of §
2250’s travel element is merely dicta. For the reathe law of the District of Columbia, Indian tribal law, or the
law of any territory or possession of the United States”).
4 The dissent determined that Nichols did not abrogate the
Court’s conclusion in Carr that interstate travel is a required
element of a § 2250(a) offense for state sex offenders and thus
concluded that “[b]ecause the interstate travel -- an element of
the offense -- began in Wisconsin, venue is proper in district
court in Wisconsin.” Id. at 338 (Sykes, J., dissenting).

11a
sons below, we do not agree.
The first error in Seward’s strained reliance on
Nichols is that Nichols involved a federal sex offender, not a state sex offender like Seward. 136 S. Ct. at
1116-17. Federal offenders, unlike state offenders,
“do[ ] not need to travel interstate to commit a SORNA offense.” Holcombe, 883 F.3d at 16; see 18 U.S.C.
§ 2250(a)(2)(A). This distinction is critical: as a result, the Nichols Court had no occasion to and, indeed, did not, address § 2250’s interstate travel element, either independently or with respect to its
bearing on the “nature” of a § 2250 violation for state
offenders. Nichols therefore “did not abrogate the
holding in Carr that the element of interstate travel
was the ‘very conduct at which Congress took aim.’” 5
Spivey, 956 F.3d at 216 (quoting Carr, 560 U.S. at
454, 130 S.Ct. 2229).
Second, Nichols did not address venue, but rather
concerned only whether Kansas was an “involved”
jurisdiction under SORNA such that Nichols was required to update his registration there once he
moved abroad. 6 136 S. Ct. at 1116. Therefore, not only did Nichols not address the interstate travel element at all, it also did not opine on the relationship
between interstate travel and venue. We thus concur
with the all but one of our sister circuits to have
Additionally, Nichols involved travel from Kansas to the Philippines, which “is not a ‘jurisdiction’ under SORNA; no foreign
country is.” 136 S. Ct. at 1117. Indeed, it “in no way considered
or ruled on the issue of where a trial should be held when a registered sex offender leaves a district and fails to register in another district that is an ‘involved jurisdiction’ for purposes of
SORNA.” Lewallyn, 737 F. App’x at 473.
6 The parties agree that Seward was not required by SORNA to
register in Massachusetts after he moved to New York.
5

12a
evaluated Nichols in the context of venue to conclude
that it does not bear on our venue analysis. See Holcombe, 883 F.3d at 15-16; Lewallyn, 737 F. App’x at
474; Spivey, 956 F.3d at 216; but see Haslage, 853
F.3d at 335.
Our dissenting colleague does not contest that
Nichols did not concern venue, pertained only to federal (not state) sex offenders, and accordingly did not
address whether the interstate travel element of §
2250 is part of the nature of the crime. See infra Section I. Our colleague also lodges his disagreement
with the rationale of the only circuit to have interpreted Nichols to find venue improper in the departure jurisdiction. See infra Section III.C.3. However,
the dissent nonetheless suggests that a reading of
Nichols, taken in conjunction with a particular line
of Supreme Court precedents, leads to the conclusion
that the true “nature” of § 2250 entirely reads out
interstate travel and is merely the “failure to do a
legally required act.” Infra Section I. This conclusion
has several fatal flaws: namely, it misapplies its cited “failure-to-act” cases, misreads Nichols, and ignores squarely on-point precedent in Carr.
The failure-to-act cases referenced by the dissent
are distinguishable on the facts. To begin, each of
these decisions concerned a statute without an interstate travel element. See Anderson, 328 U.S. at 70506, 66 S.Ct. 1213 (criminalizing the refusal of induction into the armed services in violation of the Selective Training and Service Act); Lombardo, 241 U.S.
at 74-75, 36 S.Ct. 508 (criminalizing the failure to
file a required statement under the Mann Act);
Travis, 364 U.S. at 636-37, 81 S.Ct. 358 (criminalizing filing false documentation under the National
Labor Relations Act); Johnston v. United States, 351

13a
U.S. 215, 216, 76 S.Ct. 739, 100 L.Ed. 1097 (1956)
(criminalizing the refusal of conscientious objectors
to report for civilian employment). Here, however, as
analyzed above, interstate travel is not only an element of the instant crime (as the dissent so concedes), but part of “the very conduct at which Congress took aim.” Carr, 560 U.S. at 454, 130 S.Ct.
2229. In this way, Carr makes clear that Seward’s
travel was not merely “conduct ... preceding the failure to register,” as the dissent suggests, but rather
conduct of particular concern to Congress. See id. By
contrast, the Court in Anderson and Johnston ruled
out as locus delicti of the crimes at issue locations in
which the defendant had not engaged in any conduct
that satisfied an element of the crime. See Johnston,
351 U.S. at 220-21, 76 S.Ct. 739 (noting that venue
is “determined by the acts of the accused that violate
a statute” and finding venue proper “in the vicinage
of the crime rather than the residence of the accused” (citing Anderson, 328 U.S. at 705, 66 S.Ct.
1213)). Neither case held that when a statute imposes criminal liability for failing to comply with a duty
to undertake a legally required act, venue necessarily lies exclusively where the duty must be met.
Those cases thus tell us little about where venue lies
when a defendant, like Seward, first satisfies an element of an offense that involves a failure to comply
with a duty (here, registering as a sex offender) by
engaging in certain conduct in one jurisdiction (here,
through interstate travel), and then ultimately fails
to comply with that duty in another. Here, again, the
question before us is whether Seward’s interstate
travel was part of the nature of the particular crime
at issue -- a § 2250 offense. For the reasons discussed, we hold that it is.

14a
The dissent also misrepresents the Court’s holding in Lombardo. There, a defendant from Washington State harbored an immigrant woman for the
purpose of prostitution and subsequently failed to
file a required statement with the Commissioner
General of Immigration in violation of the Mann Act.
241 U.S. at 73-75, 36 S.Ct. 508. The Court concluded
that the defendant could only be prosecuted where
the Commissioner’s office was located -- namely,
Washington, D.C. -- and not in Washington State,
where the defendant was located and could have
mailed the required statement from. 241 U.S. at 7778, 36 S.Ct. 508. The dissent implies strongly that
the Lombardo Court in reaching its conclusion considered the fact that the harboring took place in
Washington State and rejected such harboring as
part of the relevant offense, even though in the same
breath the dissent concedes that the Court never explicitly considered the harboring element. See infra
Section I n.14. To be clear, the Lombardo Court nowhere addressed the question of whether the harboring could render venue proper in Washington State.
Rather, it focused its inquiry squarely on the “filing”
requirement, reasoning that to “file” as written in
the statute meant to deliver to the office, not send
through the mails; as such, “filing” could only take
place in Washington, D.C. 7 Id. at 76-79, 36 S.Ct. 508.
Further, as the dissent too concedes, the question of
Indeed, it is in this context that the Court agreed with the
lower court’s conclusion that “[t]he gist of the offense [was] the
failure to file” the required statement with the Commissioner -not to reject the prospect that the act of harboring could constitute part of the relevant offense, but rather to emphasize that
filing, rather than mailing, was the required conduct. Id. at 76,
36 S.Ct. 508 (internal quotation mark omitted).
7

15a
whether harboring conferred venue was not before
the Lombardo Court because the government there
did not argue that it was. Moreover, as Lombardo
itself explains, “where a crime consists of distinct
parts which have different localities the whole may
be tried where any part can be proved to have been
done.” Id. at 77, 36 S.Ct. 508.
Thus, finding Nichols not dispositive as to the
venue question, we return to the question of whether
Carr, read in conjunction with foundational venue
jurisprudence, renders venue for Seward’s prosecution proper in Massachusetts. Carr undoubtedly
makes clear that interstate travel is an element of a
§ 2250 violation for state sex offenders. See 560 U.S.
at 445-46, 130 S.Ct. 2229 (listing interstate travel as
one of § 2250’s “three elements”); Holcombe, 883
F.3d at 15. We must now decide whether Carr indicates that the locus delicti for this offense encompasses the departure jurisdiction and thus grounds
venue there. For the reasons below, we find that it
does.
The Court’s discussion in Carr of § 2250’s travel
element points to the conclusion that the “offense”
described in § 2250 is not merely a failure to register, but rather, a course of conduct that begins with
interstate travel. There, the Court explicitly rejected
the argument that the interstate travel element
merely provided a jurisdictional hook, emphasizing
that “[t]he act of travel by a convicted sex offender
may serve as a jurisdictional predicate for § 2250,
but it is also ... the very conduct at which Congress
took aim,” 560 U.S. at 454, 130 S.Ct. 2229, and “an
aspect of the harm Congress sought to punish,” id. at
453, 130 S.Ct. 2229.

16a
Indeed, the Court’s language in Carr makes clear
that it viewed interstate travel as a key step in the
process by which sex offenders slip through cracks in
monitoring and enforcement. See id. at 456, 130
S.Ct. 2229 (“[W]e have little reason to doubt that
Congress intended § 2250 to do exactly what it says:
to subject to federal prosecution sex offenders who
elude SORNA’s registration requirements by traveling in interstate commerce.” (emphasis added)); see
also id. at 452, 130 S.Ct. 2229 (state sex offenders
have violated SORNA when they “use the channels
of interstate commerce in evading a State’s reach”
(emphasis added)); id. at 453, 130 S.Ct. 2229 (“Congress in § 2250 exposed to federal criminal liability
... [persons] who threaten the efficacy of the statutory scheme by traveling in interstate commerce.”
(emphasis added)). This language, emphasizing that
interstate travel is a critical mechanism by which
potential § 2250 offenders “evade” or “elude” a state’s
enforcement reach, begs the conclusion that Congress was concerned not merely with a failure to register, but also the interstate travel preceding it.
The conclusion that both the interstate travel and
failure to register elements are part of the nature of
the § 2250 offense is bolstered further by the Carr
Court’s holding that the elements of § 2250 must be
read sequentially:
A sequential reading [of the elements] ... helps
to ensure a nexus between a defendant’s interstate travel and his failure to register as a sex
offender. Persons convicted of sex offenses under state law who fail to register in their State
of conviction would otherwise be subject to federal prosecution under § 2250 even if they had
not left the State after being convicted -- an il-

17a
logical result given the absence of any obvious
federal interest in punishing such state offenders.
Id. at 446, 130 S.Ct. 2229. The Court’s emphasis on
the necessary “nexus” between a state offender’s interstate travel and his ultimate failure to register
reveals its understanding that Congress was concerned not only with the failure to register, but rather the precise problem that arises when an offender departs one state and moves to another -- neither
with accurate knowledge of his whereabouts.
We also recognize the bedrock principle that “[a]
court’s lodestar in interpreting a statute is to effectuate congressional intent.” City of Providence v.
Barr, 954 F.3d 23, 31 (1st Cir. 2020); see also Griffin
v. Oceanic Contractors, Inc., 458 U.S. 564, 570, 102
S.Ct. 3245, 73 L.Ed.2d 973 (1982) (noting the courts’
“task is to give effect to the will of Congress”); Passamaquoddy Tribe v. Maine, 75 F.3d 784, 788 (1st
Cir. 1996) (“The chief objective of statutory interpretation is to give effect to the legislative will.”). And in
ascertaining the meaning of a statutory provision,
we “must ... interpret the relevant words not in a
vacuum, but with reference to the statutory context,
‘structure, history, and purpose.’” Abramski v. United States, 573 U.S. 169, 179, 134 S.Ct. 2259, 189
L.Ed.2d 262 (2014) (quoting Maracich v. Spears, 570
U.S. 48, 76, 133 S.Ct. 2191, 186 L.Ed.2d 275 (2013)).
Examining the legislative history behind both SORNA generally and § 2250 in particular provides further support that interstate travel is part of the nature of a § 2250 offense.
SORNA includes many subsections aimed at “establish[ing] a comprehensive national system for the

18a
registration of [sex] offenders.” Carr, 560 U.S. at
455, 130 S.Ct. 2229 (second alteration in original)
(quoting 42 U.S.C. § 16901, which later became 34
U.S.C. § 20901). These include “maintain[ing] sexoffender registries that compile an array of information about sex offenders, ... mak[ing] this information publicly available online, ... [and] shar[ing]
the information with other jurisdictions and with the
Attorney General for inclusion in a comprehensive
national sex-offender registry.” Id. at 455-56, 130
S.Ct. 2229 (citations omitted). Indeed, a reading of
the legislative history reveals that the system set
forth in SORNA was designed to combat what Congress saw as “[t]he most significant enforcement issue in the sex offender program[,] ... that over
100,000 sex offenders ... are ‘missing,’ ” a problem
explicitly linked to interstate travel because “[t]his
typically occurs when the sex offender moves from
one State to another.” H.R. Rep. No. 109-218, pt. 1,
at 26 (2005), quoted in Carr, 560 U.S. at 454, 130
S.Ct. 2229. Indeed, because, as the Court has recognized, “[t]he Act’s express purpose is to protect the
public from sex offenders and offenders against children[,] ... SORNA covers more sex offenders, and imposes more onerous registration requirements, than
most States had before.” Gundy v. United States, ––
– U.S. ––––, 139 S. Ct. 2116, 2121, 204 L.Ed.2d 522
(2019) (plurality opinion) (citation and internal quotation marks omitted). Thus, as the Supreme Court
recognized in Carr, § 2250 is best read as being “embedded in a broader statutory scheme enacted to address deficiencies in prior law that had enabled sex
offenders to slip through the cracks.” 560 U.S. at
455, 130 S.Ct. 2229.
The Court also importantly observed in Carr that

19a
Congress’ drafting of § 2250 shows it intended to
“handle federal and state sex offenders differently,”
and “to have given the States primary responsibility
for supervising and ensuring compliance among
state sex offenders.” Id. at 452, 130 S.Ct. 2229. This
focus emphasizes the states’ particular interest in
recordkeeping related to state offenders like Seward
who move in “the channels of interstate commerce”
and subsequently fail to register as required. Id. The
record makes clear that Massachusetts expended resources to ascertain Seward’s whereabouts, such as
deploying law enforcement when his location became
unknown and issuing a warrant for his arrest. Massachusetts was unaware that Seward had moved
across state lines precisely because of his failure to
register in New York; a proper registration there
presumptively would have, under SORNA, triggered
a notification to Massachusetts that Seward had relocated. 8 See 34 U.S.C. § 20923(b), (b)(3)
(“[I]mmediately after a sex offender registers or updates a registration, an appropriate official in the
jurisdiction shall provide the information in the registry ... about that offender to ... each jurisdiction
from or to which a change of residence, employment,
or student status occurs.”). New York undoubtedly
had an interest in knowing that Seward resided
within it. But Massachusetts too retained an interest
in knowing Seward’s whereabouts. Untethering the
interstate travel and failure-to-register elements
We find puzzling the dissent’s emphasis that a public official,
not an offender, is responsible for notifying other relevant jurisdictions of a change in residence. Presumably, such an official only becomes aware of an offender’s change in residence
once said offender has notified the appropriate authorities as
required by SORNA.
8

20a
from one another divorces Massachusetts entirely
from that interest. 9
Seward’s interstate travel and subsequent failure
to register therefore frustrated both a goal of SORNA generally, to establish a system to monitor and
locate missing sex offenders, and the goal of § 2250
in particular, “to subject to federal prosecution sex
offenders who elude SORNA’s registration requirements by traveling in interstate commerce.” Carr,
560 U.S. at 456, 130 S.Ct. 2229. It is thus and again
unsurprising that all but one of our sister circuits to
have addressed this question have applied Carr to
conclude that the locus delicti of a § 2250 offense
“consists of both traveling and failing to register.”
Kopp, 778 F.3d at 989 (emphasis added); see Holcombe, 883 F.3d at 15-16 (“The offense begins where
the interstate journey begins, regardless of whether
the defendant had already formed an intent to violate the statute when the interstate travel began.”);
Spivey, 956 F.3d at 216 (“[U]nder Carr, the element
of ‘interstate travel’ is an essential conduct element
for a conviction under § 2250(a).”); Lewallyn, 737 F.
App’x at 475 (“Venue was proper in Georgia, where
Lewallyn began the offense that he completed by
failing to register in North Carolina.”); but see Haslage, 853 F.3d at 335-36.
Finally, we are persuaded yet further by the fact
that the relevant element of § 2250 in question -“travels in interstate commerce” -- contains an active
We do not suggest, as the dissent contends, that state interests supersede individual interests in a venue inquiry. Rather,
we reference Massachusetts’s interest in knowing Seward’s
whereabouts, an interest the dissent concedes as valid, as yet
further support for our conclusion that the nature of Seward’s §
2250 offense necessarily encompasses interstate travel.
9

21a
verb (“travels”). While this cannot itself circumscribe
§ 2250’s locus delicti, see Rodriguez-Moreno, 526
U.S. at 280, 119 S.Ct. 1239, it is in our view another
thumb on the scale weighing in favor of finding interstate travel part of the nature of a § 2250 offense.
This is especially true given the Court’s concern in
Rodriguez-Moreno that “certain conduct prohibited
by statute will be missed” in an analysis of the nature of a given offense -- not that such conduct would
be accidentally included in it. 10 Id. (emphasis added).
Accordingly, we hold that because the nature of
the offense reveals that its locus delicti encompasses
the departure jurisdiction, venue for Seward’s prosecution was proper in Massachusetts. 11 See HolWe do not, however, suggest that a conduct element must
always or automatically define the nature of a given offense.
Contra Spivey, 956 F.3d at 215-16 (concluding that only conduct, not circumstance, elements are relevant in determining
the nature of an offense). Rather, we reserve the possibility
that an anterior or jurisdictional element, for example, may not
be considered part of the nature of a given crime for purposes of
determining venue even if it is considered to be a “conduct” element.
11 The dissent also poses a series of hypothetical scenarios
which it claims illustrate that our holding today flouts constitutional venue principles. See infra Section II.B-C, III. These scenarios are not before us and are somewhat fanciful, and extended discussion of them is not warranted. We note in passing,
however, that such prosecutions would necessarily be constrained by precisely the venue principles that the dissent identifies, such as the requirement that “a criminal defendant cannot be tried in a distant, remote or unfriendly forum solely at
the prosecutor’s whim.” Salinas, 373 F.3d at 164. We also find
it possible -- but do not so hold today -- that constitutional concerns about Congress’s power under the Commerce Clause may
also preclude us were such scenarios before us from construing
this offense to encompass a defendant like the dissent’s hypo10

22a
combe, 883 F.3d at 16 (“Interstate travel requires a
departure from one State just as much as arrival in
another.”).
For the reasons above, the judgment of the district
court is affirmed.
LIPEZ, Circuit Judge, dissenting.
I agree with my colleagues on the legal framework
for our venue analysis. As acknowledged by the majority, and reaffirmed repeatedly by the Supreme
Court, “the locus delicti 12 must be determined from
the nature of the crime alleged and the location of
the act or acts constituting it.” United States v. Anderson, 328 U.S. 699, 703, 66 S.Ct. 1213, 90 L.Ed.
1529 (1946) (footnote added); see United States v.
Rodriguez-Moreno, 526 U.S. 275, 279, 119 S.Ct.
1239, 143 L.Ed.2d 388 (1999); United States v. Cabrales, 524 U.S. 1, 6-7, 118 S.Ct. 1772, 141 L.Ed.2d 1
thetical leaf-peeper, who may have traveled in interstate commerce before failing to register but whose travel did not -- in a
but-for causation sense -- trigger the registration duty, as Seward’s did. These concerns about the scope of the commerce power thus may require the interstate travel element to be read
narrowly to include a but-for causation constraint and preclude
the provision from being used to criminalize such travel. Cf.
United States v. DiTomasso, 621 F.3d 17, 26 (1st Cir. 2010)
(discussing whether § 2250 falls under Congress’ authority under the Commerce Clause), vacated on other grounds, 565 U.S.
1189, 132 S.Ct. 1533, 182 L.Ed.2d 151 (2012); United States v.
Parks, 698 F.3d 1, 7 (1st Cir. 2012) (same); compare United
States v. Lopez, 514 U.S. 549, 558-59, 115 S.Ct. 1624, 131
L.Ed.2d 626 (1995) (discussing the limits of the commerce power), with Gonzales v. Raich, 545 U.S. 1, 23-25, 125 S.Ct. 2195,
162 L.Ed.2d 1 (2005) (discussing the limits of Lopez).
12 Locus delicti is Latin for “place of the wrong,” and it means
“[t]he place where an offense was committed.” Black’s Law Dictionary (11th ed. 2019).

23a
(1998). We part ways, however, on the application of
this principle to 18 U.S.C. § 2250. In my view, based
on a close examination of the text and structure of
the statute, its placement in a comprehensive legislative scheme, and the Supreme Court’s venue precedents, the interstate-travel element is not part of
the nature of the crime. Rather, the nature of the
crime defined by § 2250 is the failure to register or
update a registration, such that venue is proper only
where that failure occurs. Accordingly, I would vacate Seward’s conviction and hold that venue for
prosecuting Seward was not proper in Massachusetts.
I.
To determine the nature of the § 2250 offense, I
look first to the text of SORNA and the key Supreme
Court case interpreting that text, Nichols v. United
States, ––– U.S. ––––, 136 S. Ct. 1113, 194 L.Ed.2d
324 (2016). SORNA requires that a sex offender keep
his or her registration current by, “not later than 3
business days after each change of name, residence,
employment, or student status, appear[ing] in person in at least 1 jurisdiction involved ... and inform[ing] that jurisdiction of all changes in the information required for that offender in the sex offender registry.” 34 U.S.C. § 20913(c) (previously at
42 U.S.C. § 16913). The statute defines “jurisdiction
involved” as one “where the offender resides, where
the offender is an employee, and where the offender
is a student.” Id. § 20913(a).
A sex offender who fails to comply with SORNA’s
registration requirements may be criminally prosecuted pursuant to 18 U.S.C. § 2250, which reads:

24a
(a) In general. --Whoever-(1) is required to register under [SORNA];
(2)(A) is a sex offender [under SORNA] by
reason of a conviction under Federal law ..., the
law of the District of Columbia, Indian tribal
law, or the law of any territory or possession of
the United States; or
(B) travels in interstate or foreign commerce,
or enters or leaves, or resides in, Indian country; and
(3) knowingly fails to register or update a
registration as required by [SORNA];
shall be fined under this title or imprisoned
not more than 10 years, or both.
Sub-section 2(A) applies to people convicted of federal sex offenses -- the government must prove only
that they are subject to SORNA and knowingly
failed to register. Sub-section 2(B) applies to people
convicted of state sex offenses (like Seward). For
them, the government must prove that they are subject to SORNA, traveled in interstate commerce, and
knowingly failed to register.
In Nichols, the Supreme Court considered the interplay of these various statutory provisions. Nichols, who had previously been convicted of a federal
sex offense, resided in Kansas until he abruptly left
the state and moved to the Philippines. 136 S. Ct. at
1117. He was arrested overseas, brought back to the
United States by federal marshals, and prosecuted
in Kansas pursuant to § 2250. Id. Nichols moved to
dismiss the indictment, asserting that SORNA did
not require him to update his registration in Kansas.
Id. Agreeing with Nichols, the Supreme Court held

25a
that Kansas was no longer a “jurisdiction involved”
under 35 U.S.C. § 20913(a) because the statute defines that term as a place in which a person currently resides, works, or is a student, not a place where
the person previously resided. Id. In other words,
Nichols had not violated SORNA, and could not be
prosecuted pursuant to § 2250, because he was no
longer living, working, or studying in a location covered by SORNA and therefore had no obligation to
notify any jurisdiction -- including his former resident state, Kansas -- of his new residence. Nichols
thus establishes, as the government concedes, that
Seward had no obligation to update his registration
in Massachusetts after he moved to New York.
My colleagues dismiss the relevance of Nichols to
the instant case. They emphasize that Nichols did
not concern venue. They note that because Nichols,
unlike Seward, had been convicted of a federal sex
offense, the government was not required to prove
that he had engaged in interstate travel in order to
convict him under § 2250, and thus Nichols did not
address the question of whether the interstate-travel
element of § 2250 is part of the nature of the crime.
However, to know whether interstate travel is part
of the nature of the crime, we must first answer that
very question: what is the nature of § 2250? In answering that question, Nichols is highly instructive.
The Court in Nichols reasoned that a defendant
who moves from a SORNA jurisdiction to a nonSORNA jurisdiction cannot be charged for violating §
2250 because no act is legally required in the nonSORNA jurisdiction, based on the plain language of
the statute. See id. at 1117-18. This rationale suggests that the nature of the § 2250 offense is the
“failure to do a legally required act.” See Johnston v.

26a
United States, 351 U.S. 215, 220, 76 S.Ct. 739, 100
L.Ed. 1097 (1956). Indeed, that characterization of §
2250 is reflected in the statutory text: the title of the
statute is “Failure to register.” 13 And as I explain infra section II.A, in the absence of a failure to register, a state sex offender who engages in interstate
travel has committed no criminal conduct.
This characterization of § 2250 puts it in the same
category as other crimes that the Supreme Court has
characterized as involving the failure to do a required act -- crimes like the refusal to perform a duty
mandated by a draft board, analyzed in United
States v. Anderson and Johnston v. United States,
and the failure to file a required statement under the
Mann Act, analyzed in United States v. Lombardo.
Anderson addressed venue for prosecution for refusal to take an oath submitting to the draft. 328
U.S. at 701, 66 S.Ct. 1213. The Court determined
that the nature of the offense was “omitting to do
While “headings and titles are not meant to take the place of
the detailed provisions of the text,” Bhd. of R.R. Trainmen v.
Balt. & Ohio R.R. Co., 331 U.S. 519, 528, 67 S.Ct. 1387, 91
L.Ed. 1646 (1947), they remain valuable tools for resolving ambiguities in statutory text. See I.N.S. v. Nat’l Ctr. for Immigrants’ Rights, Inc., 502 U.S. 183, 189, 112 S.Ct. 551, 116
L.Ed.2d 546 (1991) (“[T]he title of a statute or section can aid in
resolving an ambiguity in the legislation’s text.”). Here, the
statutory ambiguity lies in the absence of an explicit venue
provision dictating the locus delicti. Thus, it is appropriate to
look to the title of § 2250 to help discern the core conduct criminalized by the statute for purposes of ascertaining venue. Cf.
United States v. Pendleton, 658 F.3d 299, 304 (3d Cir. 2011)
(relying, in part, on the title of 18 U.S.C. § 2423(c), “Engaging
in Illicit Sexual Conduct in Foreign Places,” to conclude that
the locus delicti of the criminal offense was the location of the
illicit sexual conduct, not the place where the foreign travel
preceding the illicit sexual conduct began).
13

27a
something which is commanded to be done,” and that
venue therefore was proper only in the “place of performance” and “place of refusal to perform,” at least
where those two places were “identical.” Id. at 70506, 66 S.Ct. 1213. Because taking an oath was the
act “commanded to be done,” venue was proper only
where the defendant was required to take the oath
and refused to do so, not where the draft board that
recruited the defendant was located. Id.
Johnston involved a similar crime: the refusal to
report for civilian employment as ordered by a draft
board. 351 U.S. at 216-17, 76 S.Ct. 739. The Court
recognized “the general rule that where the crime
charged is a failure to do a legally required act, the
place fixed for its performance fixes the situs of the
crime,” which in turn “fixes the situs of the trial.” Id.
at 220, 76 S.Ct. 739. Because the defendant’s failure
to report constituted such a crime, the Court determined that “venue must lie where the failure occurred.” Id. at 222, 76 S.Ct. 739. Thus, venue was
proper only where the defendant failed to report for
work, not where the draft board was located. Id. at
216-22, 76 S.Ct. 739.
Lombardo is even more analogous to the issue
presented here. In Lombardo, the charged crime was
the failure to file a required statement under the
Mann Act. 241 U.S. 73, 75, 36 S.Ct. 508, 60 L.Ed.
897 (1916). Importantly, the defendant’s own conduct that triggered the filing requirement -- the harboring of an immigrant woman for purposes of prostitution -- took place in Washington state, where the
defendant resided and was charged. Id. at 74-75, 36
S.Ct. 508. However, the Court expressly rejected the
notion that the crime began in Washington state. Id.
at 77-79, 36 S.Ct. 508. Rather, because “[t]he gist of

28a
the offense [was] the failure to file with the Commissioner General of Immigration a statement,” venue
was proper only in Washington, D.C., where the office of the Commissioner was located. See id. at 76,
36 S.Ct. 508 (internal quotation marks omitted)
(quoting United States v. Lombardo, 228 F. 980, 982
(W.D. Wash. 1915)).
These cases strongly support the proposition that
the failure-to-register element defines the nature of
the § 2250 offense, and that the locus delicti of Seward’s offense is therefore limited to New York, where
he failed to register pursuant to SORNA’s requirements. See Nichols, 136 S. Ct. at 1117 (holding that
a defendant is required to register only in the new
state where he took up residence, education, or employment, not the departure jurisdiction). None of
these cases even hint at the possibility that the site
of any conduct of a defendant preceding the failure
to register would be a proper venue for trying that
defendant. 14
The majority attempts to blunt the force of these cases by
noting that none of the statutes at issue involved an interstatetravel element. Although true, that fact does not diminish the
significance of the repeated invocation in these cases of “the
general rule that where the crime charged is a failure to do a
legally required act, the place fixed for its performance fixes the
situs of the crime.” Johnston, 351 U.S. at 220, 76 S.Ct. 739.
Moreover, as detailed above, and as the majority concedes, unlike the draft board cases, Lombardo did involve an anterior
conduct element akin to interstate travel -- the harboring of an
immigrant woman for purposes of prostitution. See Lombardo,
241 U.S. at 74, 36 S.Ct. 508. Although the Court did not explicitly consider whether that harboring element properly conferred venue, it ultimately held that the state where the defendant performed the harboring was an improper venue for
the prosecution. Id. at 76-79, 36 S.Ct. 508. Contrary to the ma14

29a
II.
Having reached this initial conclusion that the nature of the § 2250 offense is the failure to register, I
turn my focus to the interstate-travel element and
the remaining question -- whether that element
should also be considered part of the nature of the
crime. Contrary to the majority, I answer that question in the negative.
A. Lack of Mens Rea Requirement
The interstate-travel element of § 2250 is stated
simply: “travels in interstate or foreign commerce.”
18 U.S.C. § 2250(a)(2)(B). Importantly, the statute
does not attach a mens rea requirement to the interstate-travel element. This fact distinguishes § 2250
from other statutes in which the interstate travel itself is the predicate for the offense. For example, 18
U.S.C. § 2423(b) criminalizes “[t]ravel with intent to
engage in illicit sexual activity,” and the federal
murder-for-hire statute, 18 U.S.C. § 1958, criminalizes “travel in interstate or foreign commerce ... with
intent that a murder be committed ... as consideration for the receipt of ... anything of pecuniary value.” Congress thus chose not to criminalize travel
undertaken for the purpose of evading SORNA’s regjority’s insinuation, it seems highly unlikely that the Court
would have affirmed the dismissal of the indictment for improper venue if the harboring element, which took place in that
venue, was part of the nature of the crime. Indeed, it is telling
that the government in Lombardo did not even attempt to argue that the anterior conduct of harboring conferred venue for
a prosecution involving the failure to do a legally required act.
Instead, the government asserted that the failure to do the required act itself (filing the required statement) began in the
same state as that anterior element. See id. at 77, 36 S.Ct. 508.

30a
istration requirements. It criminalized only the failure to register in the wake of travel, regardless of
the traveler’s mindset. 15
Nichols, again, reinforces this point. If § 2250
criminalized travel undertaken to escape SORNA’s
registration requirements, the defendant in that
case, who “abruptly disconnected all of his telephone
lines, deposited his apartment keys in his landlord’s
drop-box, ... boarded a flight to Manila[, and] was a
no-show at mandatory sex-offender treatment,”
would have certainly committed a violation of the
statute. 136 S. Ct. at 1117. Instead, because the defendant had no registration obligation in his new
place of residence outside the United States, his elusive travel was not part of a course of criminal conduct pursuant to § 2250. 16 Accord United States v.
In United States v. Pendleton, the Third Circuit held that
interstate travel was not part of the locus delicti for 18 U.S.C. §
2423(c), which stated at the time:
Any United States citizen or alien admitted for permanent residence who travels in foreign commerce, and engages in any illicit sexual conduct with another person
shall be fined under this title or imprisoned not more
than 30 years, or both.
658 F.3d at 303-04 (quoting 18 U.S.C. § 2423(c) (2006)). The
structure of § 2423(c) is nearly identical to § 2250, and the
court reasoned that travel was not part of the locus delicti in
part because, “while travel in foreign commerce is an element
of § 2423(c), the crime itself is not complete until a person engages in illicit sex.” Id. at 304. This structure distinguished §
2423(c) from § 2423(b), which criminalized “[t]ravel with intent
to engage in illicit sexual conduct,” and which, the court explained, “is complete as soon as one begins to travel with the
intent to engage in a sex act with a minor.” Id.
16 Although Nichols did not commit a violation of § 2250, his
behavior did violate a Kansas law requiring sex offenders who
leave the state to update their registrations in Kansas. See
15

31a
Haslage, 853 F.3d 331, 334 (7th Cir. 2017) (“[T]he
premise of Nichols is that [§ 2250] does not criminalize travel with intent to commit a crime (i.e., to fail
to register), but rather the failure to register after
traveling.”).
The Court’s analysis in Lombardo, highlighted by
the majority in its unavailing effort to distinguish
that case, see supra note 14, also supports the proposition that the lack of a mens rea requirement indicates that interstate travel is not part of the nature
of the crime. In Lombardo, the Court rejected the
government’s argument that venue was proper
where the defendant, if she had complied with the
statute, would have mailed the required form. 241
U.S. at 77-78, 36 S.Ct. 508. The Court noted that the
statute required “filing,” not “mailing,” and
“[a]nything short of delivery would leave the filing a
disputable fact.” Id. at 77, 36 S.Ct. 508 (quoting
Lombardo, 228 F. at 983). In a later venue case, the
Court elaborated on that rationale, explaining:
“Venue should not be made to depend on the chance
use of the mails. ... After mailing, the [document]
might have been lost; petitioner himself might have
recalled it.” Travis v. United States, 364 U.S. 631,
636, 81 S.Ct. 358, 5 L.Ed.2d 340 (1961). 17
Nichols, 136 S. Ct. at 1119. Accordingly, the decision in Nichols
did not “create loopholes and deficiencies in SORNA’s nationwide sex-offender registration scheme,” id. (internal quotation
marks omitted); rather, it recognized the principle that “Congress ... ha[s] given the States primary responsibility for supervising and ensuring compliance among state sex offenders,”
Carr v. United States, 560 U.S. 438, 452, 130 S.Ct. 2229, 176
L.Ed.2d 1152 (2010).
17 The statute in Travis criminalized “him who knowingly
makes any ‘false’ statement ‘in any matter within the jurisdic-

32a
The same logic applies to the interstate-travel element of § 2250 due to its lack of a mens rea requirement. After a state sex offender engages in interstate travel, his crime can be “recalled” up until
the point at which he actually fails to update his registration. In other words, even if an offender intends
to use his interstate travel to elude SORNA’s registration requirements, if he changes his mind and
performs the required registration obligation when
he reaches his new state of residence, no crime has
been committed. Accordingly, the lack of a mens rea
requirement for the interstate-travel element indicates that Congress did not intend the place of travel
to be part of the locus delicti of § 2250.
B. Lack of Causal Relationship Between Interstate-Travel
Element
and
Failure-toRegister Element
The absence of a causal relationship between the
travel element and the failure-to-register element
also indicates that Congress did not intend for venue
to lie in the place of travel. Interstate travel will
never be the “but-for cause” of a sex offender’s failure
to register because SORNA does not require a sex
offender to update his registration after interstate
tion of any department or agency of the United States.’” 364
U.S. at 635, 81 S.Ct. 358 (quoting 18 U.S.C. § 1001 (1948)). The
Court held that the statute did not create a continuing offense.
Id. at 636-37, 81 S.Ct. 358. Although the false statement -- an
affidavit swearing that the defendant was not a Communist -was composed and mailed in Colorado, venue was proper only
in the final destination where the false filing was made, i.e.
Washington, D.C. See id. at 636, 81 S.Ct. 358 (reasoning that
“[w]hen a place is explicitly designated where a paper must be
filed, a prosecution for failure to file lies only at that place”
(emphasis added)).

33a
travel. Instead, the requirement applies only after a
“change of name, residence, employment, or student
status.” 34 U.S.C. § 20913(a), (c). Pursuant to SORNA, a state sex offender is free to travel from Massachusetts to New Hampshire to go leaf-peeping without notifying any authorities. He can even drive to
Maine to spend the whole summer with his grandparents and, as long as his trip remains a vacation
and not a relocation, he is not subject to any federal
registration requirement. 18 Most importantly, even if
he succumbs to the beauty of the Maine coastline
and decides to stay permanently with his grandparents, it is that decision -- to change his residence -that triggers his federal registration requirement,
not his preceding interstate travel.
So too here. Seward necessarily engaged in interstate travel when he changed his residence from
Massachusetts to New York, but that interstate
travel did not subject him to any registration obligation; rather, it was his change in residence that triggered the obligation. In other words, the fact that
Seward’s interstate travel happened to accompany
his change in residence is irrelevant under SORNA’s
statutory framework -- all that matters is that it
preceded his failure to register. See Carr v. United
States, 560 U.S. 438, 446-47, 130 S.Ct. 2229, 176
L.Ed.2d 1152 (2010) (holding that the three elements
of § 2250 must be satisfied sequentially).
The lack of a causal relationship between the interstate-travel element and the registration obligation raises the troubling prospect that, if interstate
Of course, he may be subject to state reporting requirements,
and any violation of those requirements might constitute a
crime under state law. See supra note 16.
18

34a
travel were part of the locus delicti of § 2250, venue
might lie in a location of interstate travel bearing no
relationship whatsoever to the sex offender’s failure
to register, thereby running afoul of the constitutional venue protections. See United States v. Scott,
270 F.3d 30, 36-37 (1st Cir. 2001) (noting that the
Constitution’s venue provisions serve to prevent
“government forum shopping” or the selection of a
venue with “the barest connection” to the crime or
the defendant).
Consider this hypothetical: a state sex offender
lives in the New Jersey suburbs and commutes on
the train to New York City daily. If he moves to a
bigger house up the street and fails to register his
change in residence with the New Jersey authorities,
would we really consider New York a proper venue
for a § 2250 prosecution? Interpreting the travel element as part of the nature of the crime would permit that choice.
Or consider this hypothetical from Haslage:
[A]n offender [residing in Indiana] is subject to
SORNA’s registration requirements. He then
moves across state lines from Indiana to Kentucky with the intent to look for a new job, and
registers in Kentucky with his new address
within two days. But when he gets a new job a
week later, he fails to update his Kentucky registration.
853 F.3d at 334. Under these circumstances, the
state sex offender would be subject to prosecution
under § 2250. He (1) is subject to SORNA, (2) engaged in interstate travel by moving from Indiana,

35a
his “departure state,” 19 to Kentucky, and (3) failed to
update his Kentucky registration after he secured a
new job. Yet, it is “a strain to imagine” that Indiana
would be a proper venue for that prosecution. Id.
Even though Indiana had a connection to this offender’s change in residence (he engaged in an interstate move that began there), the offender properly
performed the registration update triggered by his
change in residence. He became criminally liable
under § 2250 only after he registered his new address, a full week passed, and he then got a new job
and failed to report that new job to Kentucky authorities. By that point, his interstate travel from Indiana bore no relationship to his failure to register,
making Indiana a constitutionally problematic venue
choice that Congress would avoid. See FTC v. Am.
Tobacco Co., 264 U.S. 298, 305-06, 44 S.Ct. 336, 68
L.Ed. 696 (1924) (rejecting a constitutionally suspect
interpretation of a statute on the basis that Congress
would not intend such a result).
C. The Problem of the “Pass-Through States”
Finding interstate travel to be part of the locus
delicti also raises a constitutional concern that venue
would lie in the jurisdictions that the sex offender
passed through on the way to his final destination,
even though they bear little relationship to his failure to register -- the so-called “pass-through states.”
For example, here, Seward might have driven
through Connecticut as part of his move from Massachusetts to New York. Or instead of moving to
New York, he might have moved to Florida and drivI discuss the significance of the term “departure state” in
greater detail infra section III.A.
19

36a
en through nearly every state along the east coast to
get there. If interstate travel is part of the locus delicti of § 2250, the government could try Seward in
any of those jurisdictions and select the most favorable one for its prosecution, running afoul once again
of the constitutional venue protections. See United
States v. Johnson, 323 U.S. 273, 275, 65 S.Ct. 249,
89 L.Ed. 236 (1944) (noting that a fundamental purpose of the constitutional venue provisions is to
avoid both the “abuses” and “the appearance of
abuses ... in the selection of what may be deemed a
tribunal favorable to the prosecution”); United
States v. Salinas, 373 F.3d 161, 164 (1st Cir. 2004)
(explaining that the venue protections “ensure[ ]
that a criminal defendant cannot be tried in a distant, remote, or unfriendly forum solely at the prosecutor’s whim”). No such problem arises if we find, as
I believe we must, that Congress intended venue to
be limited to the location of the failure to register.
III.
A. The “Departure Jurisdiction”
The majority attempts to avoid the constitutional
concerns raised by these aspects of the interstatetravel element by purporting to limit its holding to
the “departure jurisdiction” only, meaning here Massachusetts -- the state from which Seward departed
on his way to New York where he failed to comply
with the SORNA registration requirement. However,
this approach does violence to the text of the statute
and ultimately does not avoid the problems that it
seeks to circumvent.
The text of § 2250 gives no special treatment to
the departure jurisdiction. The interstate-travel el-

37a
ement -- “travels in interstate or foreign commerce,”
18 U.S.C. § 2250(a)(2)(B) -- says nothing to distinguish the departure jurisdiction from any other jurisdictions that the defendant travels through. Nichols, of course, reinforces that point, with its holding
that a sex offender who changes name, residence,
school, or job has no obligation to update his registration in a jurisdiction where he no longer resides,
receives an education, or works. See 136 S. Ct. at
1117.
The majority opinion itself reveals the difficulty
with limiting its holding to the departure jurisdiction. It says, at times, that “interstate travel ... [is]
part of the nature of a § 2250 offense.” If interstate
travel is part of the nature of the § 2250 offense, how
can interstate travel only matter for purposes of
venue when it occurs in the departure jurisdiction?
Put another way, how could Seward’s travel through
Massachusetts somehow be more salient than his
travel through, say, Connecticut, when the text of §
2250, and the operation of SORNA, treat those two
states no differently?
The majority acknowledges that “[a] court’s lodestar in interpreting a statute is to effectuate congressional intent,” City of Providence v. Barr, 954
F.3d 23, 31 (1st Cir. 2020), yet it simultaneously
“press[es] statutory construction ‘to the point of disingenuous evasion’ ... to avoid a constitutional question,” in violation of that fundamental principle, see
United States v. Locke, 471 U.S. 84, 96, 105 S.Ct.
1785, 85 L.Ed.2d 64 (1985) (quoting George Moore
Ice Cream Co. v. Rose, 289 U.S. 373, 379, 53 S.Ct.
620, 77 L.Ed. 1265 (1933)) (rejecting a saving construction of a statute that contorted the statutory
text). The majority’s approach is especially trouble-

38a
some when there is a clear alternative means of
avoiding these constitutional concerns and remaining true to Congress’s intent, as reflected in the text
of the statute: finding venue proper only where the
failure to register occurs.
Moreover, even if a holding limited to the departure jurisdiction could be squared with SORNA’s
statutory text (and it cannot be), such a holding still
does not avoid all of the concerns that I have identified. While the majority’s holding will prevent courts
in our circuit from finding venue proper in the “passthrough states,” it will not change the fact that, in
the hypothetical posed by Haslage, the defendant
could still be tried in Indiana -- the “departure state”
-- even though Indiana had no relationship with the
failure to register. Thus, the lack of a causal relationship between the interstate-travel element and
failure-to-register element of § 2250 remains a problem even under the majority’s contrived approach.
B. Justifying Its Holding as Constitutional
As-Applied
In its final footnote, the majority suggests that because there happened to be some causal relationship
between Seward’s interstate travel and his failure to
register, finding venue proper in Massachusetts -the site where his interstate travel began -- is not
unconstitutional as applied here, and the constitutionally problematic future applications of its interpretation of § 2250 are problems for another day.
This rationale reveals the majority’s misunderstanding of both the nature of the venue inquiry and the
doctrine of constitutional avoidance.
The venue analysis is not simply a means of de-

39a
termining whether venue was constitutionally permissible in a particular scenario. Rather, as the majority acknowledges, it is a means of discerning congressional intent about where the locus delicti
should lie in the absence of an explicit statutory
venue provision. See Rodriguez-Moreno, 526 U.S. at
281, 119 S.Ct. 1239 (looking to congressional intent
about the scene of the crime to determine the locus
delicti of a crime proscribing “using or carrying a
firearm ‘during and in relation to any crime of violence’ ” (quoting 18 U.S.C. § 924(c)(1) (1998))); United States v. Cores, 356 U.S. 405, 408, 78 S.Ct. 875, 2
L.Ed.2d 873 (1958) (explaining that the venue analysis requires courts to ascertain the type of statute
“Congress is found to have created” and where venue
should lie accordingly). Thus, the fact that a particular application of a statute does not raise constitutional venue concerns tells us little about congressional intent regarding the locus delicti, particularly
where, as here, other applications of the statute
raise such concerns. See Clark v. Martinez, 543 U.S.
371, 377-78, 380, 125 S.Ct. 716, 160 L.Ed.2d 734
(2005) (interpreting the Immigration and Nationality Act to bar the detention of inadmissible immigrants for longer than reasonably necessary, reasoning that Congress would not intend the statute to
result in certain unconstitutional applications not
present in the case before the court); Rust v. Sullivan, 500 U.S. 173, 191, 111 S.Ct. 1759, 114 L.Ed.2d
233 (1991) (noting the foundational assumption that
“Congress ... legislates in the light of constitutional
limitations”).
The majority also inverts the constitutional
avoidance doctrine. It suggests that unconstitutional
applications of its holding that interstate travel is

40a
part of the locus delicti can be avoided in future cases by rewriting the statute to impose a causalrelationship requirement between the interstatetravel element and the failure-to-register element.
But, in fact, the doctrine of constitutional avoidance
requires the majority to do the reverse: find that interstate travel is not part of the nature of the crime - i.e., that Congress did not intend for venue to lie in
the location of interstate travel -- to avoid those unconstitutional applications of the statute that would
require a rewriting. As the Supreme Court has put
it,
when deciding which of two plausible statutory
constructions to adopt, a court must consider
the necessary consequences of its choice. If one
of them would raise a multitude of constitutional problems, the other should prevail -whether or not those constitutional problems
pertain to the particular litigant before the
Court. 20
In Clark v. Martinez, the seven-member majority chastised
the dissent for misunderstanding the doctrine of constitutional
avoidance in the precise manner that my colleagues in the majority misunderstand it here. The dissent had argued that the
Court should not interpret a statute to avoid unconstitutional
applications that were not present in the instant case -- all that
mattered, from the dissent’s perspective, was that the statute
was constitutional “as-applied to the plaintiff.” Clark, 543 U.S.
at 395, 125 S.Ct. 716 (Thomas, J., dissenting). The majority
responded that the dissent
misconceives -- and fundamentally so -- the role played
by the canon of constitutional avoidance in statutory interpretation. The canon is not a method of adjudicating
constitutional questions by other means.... It is a tool for
choosing between competing plausible interpretations of
a statutory text, resting on the reasonable presumption
20

41a
Clark, 543 U.S. at 380-81, 125 S.Ct. 716.
C. Misplaced Reliance on Carr
In its analysis of whether the interstate-travel element is part of the locus delicti, the majority improperly relies on several statements from Carr, all
of which it misconstrues and takes out of context.
Ironically, the majority chides Seward for relying on
a non-venue case -- Nichols -- but then rests its holding almost exclusively on dicta from another nonvenue case -- Carr.
1. Carr’s Discussion of “Nexus”
Carr considered whether a state sex offender
could be prosecuted under § 2250 for failure to register when the interstate travel necessary for the
prosecution had occurred before SORNA was enacted. 560 U.S. at 444-46, 130 S.Ct. 2229. If so, the defendant there argued, § 2250 violated the Ex Post
Facto Clause of the Constitution. Id. at 442, 130
S.Ct. 2229. The Supreme Court answered the first
question in the negative and thus avoided reaching
the second argument raised by the defendant. Id. It
held that to convict a state sex offender of violating §
2250, the government must prove that the sex ofthat Congress did not intend the alternative which raises
serious constitutional doubts.... And when a litigant invokes the canon of avoidance, he is not attempting to
vindicate the constitutional rights of others, as the dissent believes; he seeks to vindicate his own statutory
rights. We find little to recommend the novel interpretive
approach advocated by the dissent, which would render
every statute a chameleon, its meaning subject to change
depending on the presence or absence of constitutional
concerns in each individual case.
543 U.S. at 381, 125 S.Ct. 716 (citations omitted).

42a
fender satisfied the statute’s three elements -- being
subject to SORNA, engaging in interstate travel, and
failing to register -- sequentially, meaning that the
interstate travel must have occurred after SORNA’s
enactment. Id. at 446-47, 458, 130 S.Ct. 2229.
In reaching that conclusion, the Court in Carr explained that:
A sequential reading [of the elements] ... helps
to ensure a nexus between a defendant’s interstate travel and his failure to register as a sex
offender. Persons convicted of sex offenses under state law who fail to register in their State
of conviction would otherwise be subject to federal prosecution under § 2250 even if they had
not left the State after being convicted -- an illogical result given the absence of any obvious
federal interest in punishing such state offenders.
Id. at 446, 130 S.Ct. 2229. The majority overreads
the Court’s discussion of a “nexus between a defendant’s interstate travel and his failure to register as a
sex offender.” Id. The nexus imposed is modest: the
interstate travel must merely predate the failure to
register -- otherwise, the federal government could
prosecute a state sex offender who fails to register
but does not even leave the state. See id.
In making the nexus point, the Court in Carr did
not surreptitiously impose some closer nexus between the interstate-travel element and the failureto-register element of § 2250 that is lacking in the
statutory text. Just because the government must
prove that a state sex offender’s interstate travel
predated his failure to register does not mean that it
must also prove that the two elements were per-

43a
formed as part of a single course of conduct. Indeed,
pursuant to the plain language of § 2250, a state sex
offender’s interstate travel may occur in a context
completely unrelated to his change in name, residence, employment, or education, which in turn triggers his registration obligation. See supra section
II.B.
This aspect of § 2250 distinguishes it from the
statute at issue in Rodriguez-Moreno, which criminalized carrying or using a firearm “during and in
relation to” a crime of violence. See 526 U.S. at 281,
119 S.Ct. 1239. The “during and in relation to” language of the statute tethered the crime-of-violence
element and the gun-use element together, criminalizing a single course of conduct that could be tried
wherever the crime of violence began. Id. at 281-82,
119 S.Ct. 1239. But § 2250 contains no such language tethering the interstate-travel element to the
failure-to-register element. Accordingly, the majority
is wrong to infer from Carr that § 2250 criminalizes
“a course of conduct that begins with interstate travel.” That interpretation simply cannot be squared
with the statutory text.
2. Carr’s Emphasis on Interstate Travel as
“Conduct at Which Congress Took Aim”
The majority also seizes on Carr’s statements that
“[t]he act of travel by a convicted sex offender may
serve as a jurisdictional predicate for § 2250, but it is
also ... the very conduct at which Congress took
aim,” 560 U.S. at 454, 130 S.Ct. 2229, and “an aspect
of the harm Congress sought to punish,” id. at 453,
130 S.Ct. 2229. These statements were a response to
the government’s argument that the interstatetravel element of § 2250 could be satisfied by travel

44a
prior to SORNA’s enactment because it was merely a
jurisdictional hook. Id. at 451-54, 130 S.Ct. 2229. In
Scarborough v. United States, the Supreme Court
had held that for a statute that imposed criminal liability on any convicted felon who “possesses ... in
commerce or affecting commerce ... any firearm,” the
prosecution did not have to prove post-enactment
movement of the gun across state lines because the
language “in commerce or affecting commerce”
served only to invoke federal jurisdiction under the
Commerce Clause. See 431 U.S. 563, 564, 572, 97
S.Ct. 1963, 52 L.Ed.2d 582 (1977) (quoting 18 U.S.C.
App. § 1202(a) (1970)); see also Carr, 560 U.S. at
453-54, 130 S.Ct. 2229. The government saw a similarity in the jurisdictional elements of the two statutes.
The Court in Carr rejected that analogy as part of
its effort to save § 2250 from violating the Constitution’s Ex Post Facto Clause. See 560 U.S. at 453-54,
130 S.Ct. 2229; see also id. at 442, 130 S.Ct. 2229
(explaining that because it construed § 2250 as not
applying to sex offenders whose travel predated
SORNA’s effective date, it did not need to address
whether the statute violates the Ex Post Facto
Clause). The Ex Post Facto Clause forbids “laws,
whatever their form, which purport to make innocent acts criminal after the event.” Lynce v. Mathis,
519 U.S. 433, 440, 117 S.Ct. 891, 137 L.Ed.2d 63
(1997) (quoting Beazell v. Ohio, 269 U.S. 167, 170,
46 S.Ct. 68, 70 L.Ed. 216 (1925)). Thus, the foundational principle behind the ex post facto prohibition
is fair notice. See id. at 441, 117 S.Ct. 891. Of course,
only a person -- not a gun -- can receive notice. Accordingly, subjecting a felon to prosecution for possessing a firearm that moved in interstate commerce

45a
prior to the felon-in-possession statute’s enactment
posed no ex post facto problem, but subjecting a sex
offender to prosecution for engaging in an element of
a crime before Congress had created that crime could
create an ex post facto problem. See Carr, 560 U.S.
at 442, 130 S.Ct. 2229.
The Court in Carr, apparently operating under
the assumption that “Congress ... legislates in the
light of constitutional limitations,” Rust, 500 U.S. at
191, 111 S.Ct. 1759, found it important that Congress “took aim” at conduct of the defendant himself
through the interstate-travel element, see Carr, 560
U.S. at 454, 130 S.Ct. 2229. In order to avoid an ex
post facto problem, Carr thus went to great lengths
to emphasize the centrality of that conduct. But
there is no reason to believe that the Court would
find that aspect of § 2250 similarly important for
purposes of venue or that the Court would even
make such observations about the interstate-travel
element outside of the ex post facto context. Accordingly, the significance of these statements from Carr
cannot be understood apart from the distinct issue
presented there.
3. Distinction Between State and Federal
Sex Offenders
As for the Carr Court’s observation that Congress’s drafting of § 2250 indicates that it intended
to “handle federal and state sex offenders differently,” id. at 452, 130 S.Ct. 2229, that statement does
little more than establish that interstate travel is an
element of a § 2250 conviction for a state sex offend-

46a
er, 21 but not a federal sex offender. However, the
simple fact that interstate travel is an element of §
2250 for state sex offenders does not mean that Congress intended that venue should lie wherever the
state sex offender engaged in that interstate travel.
The Supreme Court has specifically rejected the notion that venue lies any place where an element of a
crime is committed, see Cabrales, 524 U.S. at 7-8,
118 S.Ct. 1772 (reasoning that, when a “defendant
acts ‘after the fact’ to conceal a crime,” and “the first
crime is an essential element of the second,” the location of the first crime’s commission is, nevertheless, not a “place appropriate to try the ‘after the
fact’ actor”) (emphasis omitted), and the majority explicitly acknowledges as much in its penultimate
footnote. Thus, the statutory distinction between
state and federal sex offenders has little bearing on
the question of the locus delicti for § 2250.
4. Carr’s Reference to Sex Offenders Who
“Elude” SORNA’s Registration Requirements
The majority also turns to the legislative history
of SORNA and Carr’s commentary on it, citing the
Court’s statement that “Congress intended § 2250 to
do exactly what it says: to subject to federal prosecution sex offenders who elude SORNA’s registration
requirements by traveling in interstate commerce.”
560 U.S. at 456, 130 S.Ct. 2229. This statement appears in the section of Carr in which the Court addressed the government’s argument that the purpose
In this respect, I disagree with the majority in Haslage that
“interstate travel is a necessary precursor, but it is neither a
distinct crime nor an element of the crime.” 853 F.3d at 335. Of
course interstate travel is an element of the crime, but that fact
does not necessarily mean that it confers venue.
21

47a
of § 2250 is to find “missing” sex offenders. Id. at
454-56, 130 S.Ct. 2229. According to the government
in Carr, prosecuting a state sex offender under §
2250 who had engaged in interstate travel prior to
SORNA’s enactment was permissible because it was
consistent with that asserted statutory purpose. Id.
at 454-55, 130 S.Ct. 2229.
The Court rejected the premise of the government’s argument by concluding that finding missing
sex offenders was the purpose of SORNA generally,
but not § 2250 specifically. Id. at 455, 130 S.Ct. 2229
(“The Government’s argument confuses a general
goal of SORNA with the specific purpose of § 2250.
Section 2250 is not a stand-alone response to the
problem of missing sex offenders; it is embedded in a
broader statutory scheme enacted to address the deficiencies in prior law that had enabled sex offenders
to slip through the cracks.”). The Court then explained:
Taking account of SORNA’s overall structure,
we have little reason to doubt that Congress intended § 2250 to do exactly what it says: to subject to federal prosecution sex offenders who
elude SORNA’s registration requirements by
traveling in interstate commerce.
Id. at 456, 130 S.Ct. 2229.
Contrary to the majority’s assertion, this statement does not purport to identify the site of interstate travel as the locus delicti of § 2250 for purposes
of venue. As I have previously explained, see supra
section II.A, § 2550 does not criminalize interstate
travel undertaken to “elude” SORNA’s registration
requirements; rather, it criminalizes a failure to register after changing name, residence, school, or

48a
workplace in the wake of interstate travel. The real
question for purposes of venue is where the defendant’s act of “eluding” takes place. The answer, indisputably, is the location of the failure to register. Accord Haslage, 853 F.3d at 335. Thus, if anything,
Carr supports rather than undermines the proposition that the nature of § 2250 as a failure-to-register
offense means that its locus delicti is determined by
the location of the failure to perform -- New York, in
this case -- and not where preceding conduct that
merely satisfies an element of the crime takes place.
D. Use of An Active Verb for InterstateTravel Element
The majority employs the so-called “verb test” -the notion that active verbs in a statute define the
conduct constituting the nature of the crime -- to
support its conclusion that interstate travel is part of
the locus delicti of § 2250. In the majority’s view,
Congress’s use of an active verb for the interstatetravel element -- “travels in interstate commerce” -is a “thumb on the scale weighing in favor of finding
interstate travel part of the nature of a § 2250 offense.” However, as the majority concedes, the Supreme Court in Rodriguez-Moreno expressly rejected
dispositive reliance on the “verb test” for ascertaining the nature of the crime. 526 U.S. at 280, 119
S.Ct. 1239. Accordingly, although the verb test may
retain value as an interpretive tool, it does not override all of the other reasons detailed above for rejecting interstate travel as part of the nature of the
crime.
IV.
As a final justification for its conclusion that ven-

49a
ue was proper in the District of Massachusetts, the
majority cites Massachusetts’s “interest in knowing
Seward’s whereabouts,” as reflected in the state’s
expenditure of resources to locate Seward and a provision of SORNA unrelated to § 2250 that requires
officials in a sex offender’s new state of registration
to notify the so-called “departure state.”
No doubt Massachusetts had some interest in
knowing Seward’s whereabouts. But for the purpose
of the venue analysis, the majority pulls this “state
interest” test out of thin air. None of the Supreme
Court precedents addressing venue even mention
that general “state interests” should be factored into
the venue analysis. 22 Rather, the venue analysis itself, by assessing where the crime is committed,
takes into account the interests of states in prosecuting crimes that are committed within their borders.
Thus, Massachusetts’s interests in knowing Seward’s whereabouts or its decision to expend resources
to find him have no bearing on the question of where
Seward committed a violation of § 2250. If that violation did not happen in Massachusetts, Massachusetts’s interests are irrelevant under the Supreme
Court’s prescribed venue analysis. See RodriguezMoreno, 526 U.S. at 279, 119 S.Ct. 1239 (quoting
Cabrales, 524 U.S. at 6-7, 118 S.Ct. 1772) (reaffirming that venue is determined by “the nature of the
crime alleged and the location of the act or acts constituting it”).
Indeed, the interests of Massachusetts in knowing
Indeed, in Cabrales, the Court noted that “the venue requirement is principally a protection for the defendant” rather
than an issue of state interests. See 524 U.S. at 9, 118 S.Ct.
1772.
22

50a
Seward’s whereabouts are protected by other federal
statutory provisions, not § 2250. As the majority
points out, a separate provision of SORNA, 34 U.S.C.
§ 20923(b)(3), imposes a duty on “an appropriate official in the jurisdiction” where the sex offender updates a registration to notify “each jurisdiction from
... which a change of residence ... occurs.” Notably,
that duty is imposed on a public official, not on the
sex offender himself. As Nichols makes clear, federal
law imposes no obligation on the sex offender to notify the departure jurisdiction of his residence change.
See 136 S. Ct. at 1117; see also Sex Offender Registration and Notification Act (SORNA), Pub. L. No.
109-248, 120 Stat. 590, 597, 600 (2006) (repealing
the former federal requirement that sex offenders
report a change of address to the state that they are
leaving and adding the new requirement, now codified at 34 U.S.C. § 20923(b)(3), that public officials
must report a new sex offender’s registration to that
sex offender’s former state of residence). Thus, the
notification obligation imposed on public officials
pursuant to 34 U.S.C. § 20923(b)(3) does not bear on
the nature of § 2250. The nature of the crime created
by § 2250 is the sex offender’s failure to comply with
SORNA’s registration requirements, and, pursuant
to Nichols, that failure occurs only in a single jurisdiction: the new residence, place of education, or
place of work.
Massachusetts also has a state law that that requires sex offenders registered in Massachusetts to
notify Massachusetts officials if they move out of
state. See Mass. Gen. Laws ch. 6, § 178E(i) (“A sex
offender required to register pursuant to sections
178C to 178P, inclusive, who intends to move out of
the commonwealth shall notify the board not later

51a
than ten days before leaving the commonwealth.”).
The Massachusetts legislature has made violation of
that law a crime, see id. § 178H(a), in order to protect Massachusetts’s interest in knowing the whereabouts of previously registered sex offenders who
abandon their Massachusetts residences. Accord
Nichols, 136 S. Ct. at 1119 (noting that Nichols’s
failure to update his registration in Kansas when he
moved out of the state was a crime under Kansas
law, even if it was not a crime pursuant to § 2250).
But, again, that fact tells us nothing about the locus
delicti of Seward’s charged offense, which was a violation of § 2250, not a violation of state law or some
other provision of SORNA.
Indeed, it was the violation of those Massachusetts laws, coupled with Seward’s failure to appear
at his annual registration appointment at the local
Massachusetts police department, that led state authorities to issue a warrant for his arrest. Thus, the
“resources” that Massachusetts expended tracking
down Seward were the result of his violation of state
law, not his alleged violation of § 2250.
The Court in Carr emphasized that “the federal
sex-offender registration laws have, from their inception, expressly relied on state-level enforcement.”
Carr, 560 U.S. at 452, 130 S.Ct. 2229. The reliance
on that state-level enforcement will always result in
the expenditure of resources in an effort to monitor
sex offenders at the state level. However, the interests of a state generated by state-level monitoring
have little bearing on venue for a crime that focuses

52a
on a federal registration obligation. 23 The question is
where that federal obligation must be performed,
and where Seward failed to perform it. The undisputed answer pursuant to Nichols is New York.
V.
“[Q]uestions of venue are more than matters of
mere procedure. ‘They raise deep issues of public policy in the light of which legislation must be construed.’” Travis, 364 U.S. at 634, 81 S.Ct. 358 (quoting Johnson, 323 U.S. at 276, 65 S.Ct. 249). With
this fundamental principle in mind, and for the reasons explained above, I would hold that the locus delicti of § 2250 is limited to the jurisdiction in which a
state sex offender fails to register and does not include any of the jurisdictions through which he travels, including the so-called “departure state.” Seward
should not have been prosecuted in the federal district court in Massachusetts. His motion to dismiss
the indictment should have been granted. Accordingly, I respectfully dissent.

The majority acknowledges that state interests do not supersede individual interests in the venue inquiry, yet its elevation
of state interests in its analysis of § 2250 tells a different story.
23

53a
APPENDIX B
United States District Court
District of Massachusetts
United States of America, Plaintiff,
v.
Anthony Seward, Defendant.
Criminal Action
No. 17-cr-10050-DJC-1
August 10, 2017
4:15 p.m.
TRANSCRIPT OF STATEMENT OF REASONS/
MOTION RULING
BEFORE THE HONORABLE DENISE J. CASPER,
UNITED STATES DISTRICT COURT
….
On the issue of venue, I don’t think venue in Massachusetts for this crime is improper even if there
would also be venue properly found in New York.
The government does have to show venue by a preponderance of the evidence that venue here is proper. United States v. Salinas, 373 F.3d 161, 163 (1st
Cir. 2004). Venue can be determined from the nature
of the crime, analyzing the elements underlying that
offense and the location of the commission of the
crimes. United States v. Scott, 270 F.3d 30, 35 (1st
Cir. 2001).
As I noted before under the venue statute, Title 18
U.S.C. Section 3237, venue is proper where an offense which is begun in one district and completed in
another or is completed in more than one district can
be prosecuted and therefore venue is proper. And

54a
that’s certainly true for crimes involving or requiring
travel in interstate commerce as I find this charge
against you, Mr. Seward, does require.
I know that you were relying on the Nichols case,
Nichols v. United States, 136 S. Ct. 1113, 1117-18
(2016). But I don’t think Nichols answers the venue
question that is presented here for the reasons that
my questions suggested. To the extent that the Seventh Circuit in a divided opinion, as Ms. Lawrence
has put it, United States v. Haslage, 853 F.3d 331
(7th Cir. 2017), has found otherwise in terms of
whether or not interstate commerce is a required element.
I disagree with that analysis and agree with the
dissent in that case, which recognized citing Carr,
the preexisting Supreme Court precedent, 560 U.S.
438, that it is a necessary element which is consistent with what I think is the more persuasive
analysis, United States v. Wright, 2016 U.S. Dist.
LEXIS 139076 (D. Vt. Oct. 6, 2016).
For all of these reasons, I think the indictment
properly states a charge against you, and I do find
that venue is proper here. And for all of these reasons I’m going to deny the motion docket 47.

55a
APPENDIX C
United States Court of Appeals
For the First Circuit
No. 18-1519
UNITED STATES
Appellee
v.
ANTHONY SEWARD
Defendant-Appellant
Before
Howard, Chief Judge,
Torruella, Lynch, Lipez, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: September 23, 2020
The petition for rehearing having been denied by
the panel of judges who decided the case, and the petition for rehearing en banc having been submitted
to the active judges of this court and a majority of
the judges not having voted that the case be heard
en banc, it is ordered that the petition for rehearing
and the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk

